HHS/OIG-Audit--"Audit of Training Contract Costs Claimed for Federal
Reimbursement by the California Department of Social Services, (A-09-95-00056)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Training Contract Costs Claimed for Federal Reimbursement
by the California Department of Social Services," (A-09-95-00056)
August 9, 1996
Complete
Text of Report is available in PDF format (1.65 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency allocated all costs
incurred under a training contract to Federal programs only, although State
programs also benefitted. As a result, the State's overclaim of Federal funds
totaled $3.0 million. Also, the State claimed $0.9 million as in-kind matching
costs that was improper because the matching funds were actually provided by
a private third party. However, State officials provided evidence that approval
had been obtained from the Administration for Children and Families (ACF) to
do this, even though the approval was not in accordance with ACF policy. In
addition to financial adjustments, we recommended procedural improvements to
correct noted weaknesses.